U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alfred Procopio, Jr. v. Robert Wilkie, Secretary of Veterans Affairs, No.
19-819

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 24,
2019, and placed on the docket on December 31, 2019. The government's response is now due,
after one extension, on March 2, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including April 1, 2020, within which to file the
government's response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government's response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

19-08 19
PROCOPIO, ALFRED, JR.
ROBERT WILKIE, SECRETARY OF VETERANS

JOHN B. WELLS
769 ROBERT BLVD.
SUITE 201 D
SLIDELL, LA 70458
985-641-1855
JOHMIAWESQ@MSN.COM

